U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


        AGRICULTURAL LEASING
       AND GRAZING ACTIVITIES,
          ROSEBUD AGENCY,
       BUREAU OF INDIAN AFFAIRS

             REPORT NO. 99-I-123
              DECEMBER 1998
                                                                          C-IN-BIA-002-97(E)


              United States Department of the Interior
                             OFFICEOFl.NSPECTORGENERAL
                                      Washington. DC. 20240




                                   AUDIT REPORT

Memorandum

To:       Assistant Secretary for Indian Affairs

From:     Robert J. Williams -/+XZ/l &./,*CLci%   ” >#
          Assistant Inspector General for ‘audits

Subject: Audit Report on Agricultural Leasing and Grazing Activities, Rosebud Agency,
         Bureau of Indian Affairs (No. 99-I-123)

                                  INTRODUCTION
This report presents the results of our audit ofagricultural and grazing activities ofthe Bureau
of Indian Affairs Rosebud Agency. The objective ofthe audit was to determine whether the
Agency adequately managed agricultural leases and grazing permits for the Rosebud Sioux
Tribe and individual Indian landowners on the Rosebud Sioux Indian Reservation.

BACKGROUND

According to the Code of Federal Regulations (25 CFR 162 for leasing and 166 for grazing),
the Bureau of Indian Affairs is responsible for approving leases and grazing permits for
individually owned land and tribal land held in trust that are negotiated by the landowners or
their representatives. The Bureau may also grant leases or permits on individually owned land
on behalf of incompetent persons, orphaned minors, undetermined heirs of estates,
landowners who have not been able to agree upon a lease or permit, landowners who have
given the Secretary of the Interior written authority to execute leases or permits, and
landowners whose whereabouts are unknown. The Code of Federal Regulations also states
that leases and permits may be executed either through negotiation or advertisement and that
annual rents should provide for a fair annual return. Specifically, the Code states that
(1) agricultural leases are not to exceed 5 years for dry-farming land and 10 years for irrigable
land but that, when lessees are required to make substantial improvements to the land for the
production of specialized crops, leases can be approved for 25 years and (2) grazing permits
are not to exceed 5 years except when substantial development or improvement is required,
in which case the maximum period “shall be” 10 years.
To improve the management, productivity, and use of Indian agricultural lands and resources,
the Congress enacted the American Indian Agricultural Resource Management Act in
December 1993. The Act states that the Secretary is to manage Indian agricultural lands to
achieve the following objectives: (1) protect and maintain the highest productive potential on
the lands, (2) increase production and expand diversity on the lands, (3) manage lands
consistent with integrated resource management plans, (4) enable Indians to maximize the
potential benefits available to them by providing technical assistance, (5) develop Indian
agricultural lands to promote self-sustaining communities, and (6) assist trust and restricted
Indian landowners in leasing their land for a reasonable annual return consistent with prudent
management and conservation practices. To meet the objectives, the Act requires that 1 O-\-ear
Indian agricultural resource management and monitoring plans be prepared and implemented
for Indian agricultural lands “within three years of the initiation of activity to establish the
plan. ”

The Act stipulates that the management and monitoring plans be developed by tribes under
self-determination contracts or self-governance compacts or by the Bureau if tribes choose
not to contract or compact for the plans. The Act also requires that the Bureau, by June
 1994, contract with a non-Federal entity to conduct an independent assessment of Indian
agricultural land management and practices, which was to include a comprehensive
assessment of the improvement, fundin,,   (r and development needs for all Indian agricultural
lands. However, the Bureau had not contracted for the assessment as of August 1998. In
addition, the Act required the Bureau to issue final regulations to implement the Act by
December 1995. In June 1996, the Bureau issued proposed regulations; however. the
regulations had not been finalized as of August 1998. Further, the Act changed many of the
requirements specified in the Code of Federal Regulations. For example, the .Act
(1) authorizes the leasing of agricultural lands to the highest bidder at rates below the
appraisal amount after “satisfactorily” advertising the leases when such action would be in the
best interest of the landowner, (2) provides preference to Indian operators of agricultural
leases when authorized by tribal resolution and when the landowner received fair market
value, (3) waives the requirement for bonds when authorized by tribal resolution and n-hen
other collateral was posted in lieu of bonds, and (4) extends the maximum lease term for
dry-farming land from 5 to 10 years.

The Rosebud Agency of the Bureau’s Aberdeen Area Office is responsible for leasing and
grazing activities for the Rosebud Sioux Tribe and individual Indian landowners on the
Rosebud Sioux Indian Reservation. The Reservation encompasses about 879,000 acres in
South Dakota, which consists ofabout 406,000 acres ofindividual Indian-owned lands, about
472,000 acres of tribal lands, and about 700 acres of Government lands. The ownership
interests in the individual Indian-owned lands are severely fractionated.’ As of December 3 1,
1996, the Agency administered 1,835 agricultural leases that encompassed about 33 1.000


‘Fractionated ownership has resulted because many Indians died without wills. As a result, over a period of
generations, many allotments became jointly owned by hundreds of heirs.




                                                    2
acres of farm and pasture lands which had annual lease rents totaling about $1.8 million and
administered 208 grazing permits that encompassed about 439,000 acres of pasture lands
which had annual grazing fees totaling about $1.4 million.

The Rosebud Agency had nine individuals assigned to the real estate services program and
seven individuals assigned to the land operations program, The work load of realty and land
operations staff included the following administrative duties: (1) approving leases and issuing
permits; (2) collecting rents and fees, forwarding collections for deposit, and distributing lease
rents and permit fees; (3) ensuring compliance with the terms of the leases and permits;
(4) processing land acquisitions and disposals; and (5) processing probates.

The Secretary of the Interior has been designated as the trustee of funds held in trust by the
Government for the benefit of Indian tribes and individual Indians. The Secretary’s authority
for the management oftrust funds was delegated to the Assistant Secretary for Indian Affairs
in the Departmental Manual (109 DM 8) and was redelegated to the Bureau’s Aberdeen Area
Director in the Bureau of Indian AITairs Manual (10 BIM, Bulletin 13). On October 26,
1989, Secretarial Order No. 3 137 was issued to establish the Office of Trust Funds
Management within the Bureau of Indian Affairs. The Offrice of Trust Funds Management
was responsible for providing oversight of some of the financial trust service functions, which
                                           u and accounting for the trust funds. However, the
included collecting, investing, distributin,,
Office of the Special Trustee for American Indians was authorized by the American Indian
Trust Fund Management Reform Act of 1994 to provide more effective management of and
accountability for the proper discharge ofthe Secretary’s trust responsibilities to Indian tribes
and individual Indians. Further, on February 9, 1996, Secretarial Order No. 3 197 was issued
to establish the Office of the Special Trustee for American Indians and to transfer the
Bureau’s Office of Trust Funds Management and other financial trust service functions to the
Office of the Special Trustee.

SCOPE

The audit was performed at the Rosebud Agency offices in Mission and Rosebud, South
Dakota. During the audit, we also contacted Bureau officials from the Division of Real
Estate Services in Washington, D.C., and the Aberdeen Area Office. Our audit focused on
agricultural leasing and grazing permit activities that occurred during calendar years 1996 and
1997. However, we expanded the scope of our review to include revenues in special deposit
(suspense) accounts to determine whether agricultural lease rents and grazing fees were
distributed to landowners. In addition, in testing the timeliness of disbursements made to
landowners, we did not attempt to validate or test any specific disbursement transactions to
determine whether funds were paid to the proper landowners because of long-standing
problems associated with the Bureau’s land title records system and its Integrated Records
Management System land ownership subsystem.




                                                3
Our audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. As part of our review, we assessed the Bureau’s system of internal controls
and found weaknesses related to clearing special deposit accounts. This weakness is
addressed in the Results of Audit section of this report. Our recommendations, if
implemented, should improve the internal controls in these areas.

We also reviewed the Department’s Reports on Accountability for fiscal years 1996 and 1997,
which include information required by the Federal Managers’ Financial Integrity Act of 1982,
to determine whether any reported weaknesses were directly related to the objective and
scope of our audit. The reports cited long-standing material weaknesses in the Bureau’s
management of trust funds, the responsibility for which has been transferred to the Offtce of
the Special Trustee for American Indians; the Bureau’s debt collection practices; and the
Bureau’s land records management. These weaknesses were considered in planning and
conducting our review.

PRIOR AUDIT COVERAGE

Neither the Offrce of Inspector General nor the General Accounting Offtce has issued an audit
report during the past 5 years on agricultural leases and grazing permits managed by the
Rosebud Agency. However, in January 1998, the Offrce of Inspector General issued the audit
report “Financial Statements for Fiscal Year 1996 for the Office of the Special Trustee for
American Indians Tribal, Individual Indian Monies, and Other Special Trust Funds Managed
by the Office of Trust Funds hlanagement” (No. 98-I-206). The report presented the results
of the audit, which was performed by an independent certified public accounting firm, of the
statement of assets and trust fund balances and the statement of changes in trust fund balances
for tribal, individual Indian monies, and other special trust funds as of and for the year ended
September 30, 1996. The report on internal controls stated that the Offtce of Trust Funds
Management and the Bureau “continue to be hampered by a lack of adequate information
systems to support various trust-related activities, including land inventory systems, lease
management systems, ownership systems, accounts receivable and an adequate trust
accounting system for IIM [Individual Indian Money].” The report identified three reportable
conditions that impacted the scope of our audit: (1) suspense accounts were not analyzed;
(2) policies and procedures regarding special deposit accounts were lacking and practices
regarding these accounts were inconsistent; and (3) the system ofpolicies and procedures for
determining interest earnings for Individual Indian Money accounts was inadequate, which
adversely impacted the complete and timely distribution of funds to account holders. The
conditions identified and the resultant recommendations were considered in the preparation
of our current report.




                                               4
                                    RESULTS OF AI’DIT
We found that the Rosebud Agency generally managed agricultural and pasture leases on the
Rosebud Sioux Indian Reservation in accordance with applicable regulatory, lease, and permit
requirements. Specifically, the Agency ( 1) advertised, using sealed bidding procedures,
those lands that were available for leases and permits; (2) initiated actions in a timely manner
to ensure that lease renewals were approved without a loss of revenue to the landowners;
(3) usually made timely distributions of rents and fees collected to Indian landowners; and (4)
enforced bonding requirements stipulated in the leases. However, we also found that some
lease rents, grazing fees, and related interest which were deposited into special deposit
accounts in the 1980s and 1990s had not been distributed to landowners.’

The Code of Federal Regulations (25 CFR 114) specifies that special deposit accounts are to
be used for the “temporary deposit” of funds lvhich cannot be credited to specific accounts
or readily distributed. The Code further states that the interest earned on principal in special
deposit accounts is to be distributed with the related principal. At February 28, 1997, the
Agency had 599 special deposit accounts, with balances totaling about $577,000, that
consisted of undistributed agricultural lease rents and grazing fees and accrued interest.
Based on our analysis of 142 special deposit accounts, with balances totaling about $493,000,
we found that the rents and fees and related interest deposited had not been distributed to
landowners as follows:

                                      Rev,enues             Interest
                   Year                  Not                  Not
                 Deposited            Distributed          Distributed              Total
               1997                      $26,159             $13,849               $40,008
               1996                       57,279              30,153                87,432
               1995                        4,887              27,730                32,617
               1994                       22,382              25,485                47,867
               Prior to 1994             156.591             128.324               284.915
                  Total                 $267,298            $225,541             $492,839



The Agency’s realty and land operations staff were responsible for ensuring that funds in the
special deposit accounts, including interest earned, were distributed to landowners. However,
the Agency did not have procedures to ensure that funds in special deposit accounts were
analyzed and distributed, and the Agency did not dedicate sufficient personnel resources to


“The Bureau is responsible for administenn,(J Iwscs and permits on indi\-ldunll!- o\~ncd land and tribal land
held in trust. Hovwer. the Department’s Oflicc of the Special Trustee for American lndlans IS responsible
for establishing proper controls for managing trust funds. including trust funds deposited in the Individual
Indian Money accounts system. which includes special deposit accounts.




                                                      5
analyze special deposit account balances and land ownership records to properly distribute
these funds. Consequently, landowners were not provided the funds to which they were
legally entitled.

The January 1998 Office of Inspector General audit report on the Office of the Special
Trustee’s financial statements for fiscal year 1996 identified significant deficiencies relating
to “reportable conditions” for special deposit accounts3 The report made four
recommendations to correct special deposit account deficiencies similar to those that we
identified during our current review. The recommendations related to performing an analysis
of accounts (Recommendation 20); establishing policies and procedures for using special
deposit accounts (Recommendation 24); establishing an adequate system, policies, and
procedures for determining interest earned for Individual Indian Money account holders
(Recommendation 25); and establishing controls to verify that items are cleared
(Recommendation 7). Based on the actions outlined in response to the January 1998 report,
we considered these recommendations resolved but not implemented. We believe that
implementation of these recommendations will correct the deficiencies in the special deposit
accounts that we identified during this review. In addition, the deficiencies identified in the
January 1998 report have been incorporated into subproject plans of the High Level
Implementation Plan for the Trust Management Improvement Project approved by the
Secretary of the Interior on July 3 1, 1998. The implementation ofthe Plan will be monitored
by the Assistant Secretary for Policy, Management and Budget. Therefore, we have made
no recommendations in our current report with respect to these issues.

Since this report does not contain any recommendations, a response is not required.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification ofeach significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau personnel in the conduct of our audit.


cc: Special Trustee for American Indians




3The report dciined a “reportable condition” as a matter relating to significant deficiencies in the design
or operation of the internal control structure that, in the auditors’ judgment, could adversely affect the
Ofke of Trust Funds Management’s ability to record, process, summarize, and report financial data
consistent with the assertions of management in the financial statements.




                                                    6
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                         (67 1) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 l-800-424-508 1
 TDD l-800-354-0996

FI’SKommercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420

 HOTLINE
1849 C Streeq N.W.
Mail Stop 5341
Washington. D.C. 20240    c.
